TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Large and Mid-Size Business Division
                    Has Effectively Implemented Its Human
                               Capital Initiatives



                                           July 21, 2006

                              Reference Number: 2006-30-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              July 21, 2006


 MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Large and Mid-Size Business Division Has
                             Effectively Implemented Its Human Capital Initiatives
                             (Audit # 200530033)

 This report presents the results of our review to determine whether the Large and Mid-Size
 Business (LMSB) Division has implemented effective actions for and achieved measurable
 results from its strategic human capital initiatives.

 Synopsis
 The LMSB Division is successfully implementing its human capital initiatives and is taking
 adequate steps to maintain staffing levels to support workloads. The LMSB Division has
 followed up on recommendations made in a prior Treasury Inspector General for Tax
 Administration report1 and has taken action to ensure it maintains a skilled and highly qualified
 staff to meet the mission of the Internal Revenue Service (IRS) and reduce taxpayer burden by
 providing top-quality service.
 The LMSB Division hiring plan was developed to align with the strategies, goals, and priorities
 of the Division. Qualified applicants have been hired both internally and externally. The LMSB
 Division is also beginning to develop its own internal pool of qualified applicants through intern
 and co-op programs. The LMSB Division is working with the IRS Human Capital Office to
 develop competency models for the majority of positions within the LMSB Division. Once these



 1
  Management Advisory Report: Significant Efforts Have Been Made to Address the Large and Mid-Size Business
 Division’s Human Capital Concerns, but a Formal Workforce Planning Model Has Not Been Developed (Reference
 Number 2001-30-137, dated August 2001).
                    The Large and Mid-Size Business Division Has Effectively
                           Implemented Its Human Capital Initiatives



models are completed, they will enable the LMSB Division to conduct workload studies for the
next 4 to 5 years.
Training is provided to employees consistently and timely. The LMSB Division uses a coaching
program to transfer the knowledge of its experienced staff to its newly hired employees.
Succession planning is a priority for the LMSB Division because over 50 percent of its
management and executive staff will be eligible for retirement by October 2008. The LMSB
Division has taken the initiative to develop its own Succession Planning Model to prepare for
these future vacancies. Additionally, the LMSB Division continues to improve upon its
communications with all levels of employees.

Recommendations
We made no recommendations in this report because the LMSB Division effectively
implemented its human capital initiatives. LMSB Division management reviewed the draft
report and concurred with its contents. Because there were no recommendations requiring a
formal response, the LMSB Division agreed to the issuance of the report with no formal written
response.
Copies of this report are also being sent to IRS officials affected by the report finding. Please
contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Small Business and Corporate Programs), at (202) 622-8500.




                                                                                                    2
                           The Large and Mid-Size Business Division Has Effectively
                                  Implemented Its Human Capital Initiatives




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Large and Mid-Size Business Division Is Successfully
          Implementing Its Human Capital Initiatives.................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
        The Large and Mid-Size Business Division Has Effectively
               Implemented Its Human Capital Initiatives




                    Abbreviations

GS               General Schedule
HCAAF            Human Capital Assessment and Accountability Framework
IRS              Internal Revenue Service
LMSB             Large and Mid-Size Business
                        The Large and Mid-Size Business Division Has Effectively
                               Implemented Its Human Capital Initiatives




                                           Background

The President’s Management Agenda identifies the strategic management of human capital as
one of five priority efforts required to implement the Federal Government’s management reform
plan. The Office of Personnel Management is leading the Federal Government’s Strategic
Management of Human Capital Initiative and has produced a Human Capital Assessment and
Accountability Framework (HCAAF) that guides agencies in establishing world-class human
capital management systems. The Internal Revenue Service (IRS) is using the HCAAF and the
Human Capital Standards for Success, a tool for measuring success in human capital
management.
One of the standards of the HCAAF is workforce planning, which is the process of analyzing an
organization’s future staffing needs and developing plans to satisfy those needs. The objective
of the process is to ensure information is provided to determine the right combinations and
amounts of training, recruiting, and work/life programs needed to build the workforce to
accomplish program goals and objectives. Workforce planning is a continuous process and
should be done concurrently with the development of an organization’s strategic plan.
The IRS faces a very challenging external human capital environment. This environment is
characterized by more complex work, more pressure for improved service and performance,
competition for knowledge workers, and job entrants with different career expectations. To be
effective, the IRS human capital strategy must address each of these factors.
The Large and Mid-Size Business (LMSB) Division is continuing to lose highly skilled
technical employees, primarily through retirement, and is replacing fewer technical
employees than have separated. Since June 2000, 868 revenue agents have separated from
the LMSB Division. By October 1, 2007, 43 percent of the LMSB Division’s technical
workforce, 56 percent of team managers, and 61 percent of senior managers will be eligible
for retirement. Historically, 18 percent of revenue agents who are eligible to retire elect to do
so in the year in which they become eligible. Revenue agents who do not choose to retire
remain with the IRS an average of 3.1 years after eligibility. According to the LMSB
Division’s Fiscal Year 2006 Strategic Assessment, revenue agents comprise 76 percent1 of
the LMSB Division workforce.
The future success of the LMSB Division is dependent upon ongoing efforts to replenish the
workforce, provide education and training, and provide work inventory more effectively.
Additionally, communication of workforce plans to employees and stakeholders is essential to
the success of the strategic management of human capital. According to a prior Treasury


1
    Based upon LMSB Division workforce statistics from November 2003.
                                                                                             Page 1
                      The Large and Mid-Size Business Division Has Effectively
                             Implemented Its Human Capital Initiatives



Inspector General for Tax Administration report,2 successful implementation of the LMSB
Division’s human capital strategy will require improvements.
This review was performed at the LMSB Division in Washington, D.C., during the period
October 2005 through April 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




2
 Management Advisory Report: Significant Efforts Have Been Made to Address the Large and Mid-Size Business
Division’s Human Capital Concerns, but a Formal Workforce Planning Model Has Not Been Developed (Reference
Number 2001-30-137, dated August 2001).
                                                                                                   Page 2
                    The Large and Mid-Size Business Division Has Effectively
                           Implemented Its Human Capital Initiatives




                                 Results of Review

The Large and Mid-Size Business Division Is Successfully
Implementing Its Human Capital Initiatives
The LMSB Division is successfully implementing its human capital initiatives and is taking
adequate steps to maintain staffing levels to support workloads. The LMSB Division has
followed up on recommendations made in our prior report and has taken action to ensure it
maintains a skilled and highly qualified staff to meet the mission of the IRS.
Our prior report recommended the LMSB Division develop a comprehensive workforce planning
model. The LMSB Division conducts workload studies to ensure domestic and international
agents are placed in geographical areas where they are needed. The strategic planning process
includes a review of all human capital data including retirement trends, skill levels, location of
the workforce, and gaps in skills among the technical employees. The LMSB Division has
nearly completed competency matrixes that will identify those skills needed for the Division to
maintain a skilled workforce of employees who are deployed to examine those returns with the
highest risk for noncompliance.
Additionally, we recommended the Deputy Commissioner, LMSB Division, whose
responsibilities and authorities include integrating strategic workforce issues with the strategic
management and budget process, be placed in charge of the human capital aspect of the LMSB
Division. The Commissioner, LMSB Division, instead placed the Director, Management and
Finance, in charge of the overall human capital initiatives. This has been successful in ensuring
the human capital initiatives continue to be met.
The LMSB Division continues to attract and recruit a skilled workforce
The LMSB Division hiring plan was developed to align with the strategies, goals, and priorities
of the Division. Workforce planning begins with the budgeting process and the amount of
money requested and received by the LMSB Division to fulfill its human capital needs. The
Workload Study Plan captures information on where the work is located in the LMSB Division
and the number of employees available to perform that work. The Workload Study Plan is used
to determine areas where hiring is needed and where personnel shortages could occur due to
potential retirements.
The hiring plan lists the staffing needs and related locations within the LMSB Division, focusing
on internal and external applicants. For external applicants, the LMSB Division uses USAJOBS
(a public Internet site) in connection with Career Connector, which is an automated applicant
management system for applicants to IRS positions. The LMSB Division worked with the IRS

                                                                                            Page 3
                        The Large and Mid-Size Business Division Has Effectively
                               Implemented Its Human Capital Initiatives



Human Capital Office to modify the system to include questions that pertain to the needs of the
LMSB Division. These questions allow the LMSB Division to rank only those applicants that
are qualified for each listed position. The system currently ranks applicants for revenue agent,
international specialist, and engineer positions. The LMSB Division is modifying the system to
rank other specialty positions for recruitment.
The LMSB Division tracks both the new applicants hired and those that declined employment
offers. The LMSB Division uses this information to determine where to focus future recruitment
efforts. Hiring plans are also coordinated with the LMSB Division Equal Employment Office to
ensure diversity is met when identifying new applicants.
The LMSB Division hires most of its current applicants at a General Schedule (GS)-13,3 step 1
level or higher, with a Master’s degree or applicable experience. The LMSB Division recruits
most of its internal applicants from the Small Business/Self-Employed Division, by offering
GS-13 promotions to selected employees who are currently in GS-12 positions.
Hiring begins with an internal announcement for positions, followed by an external
announcement. Announcements can be open for specific time periods or remain open
indefinitely until enough applicants are obtained. The LMSB Division has not encountered any
problems with attracting qualified candidates. Internally, the LMSB Division has the highest
grade structure of any IRS function. Externally, high-caliber applicants are attracted because the
LMSB Division can offer more job security, a 40-hour work week, more control of the person’s
job environment, and other work/life quality issues.
Additionally, the LMSB Division continues to look at other methods for developing its own
internal pool of qualified applicants. For example, in Fiscal Year 2006, the LMSB Division is
trying to hire 40 to 50 interns at a GS-9 level. Also, the LMSB Division is working on hiring
co-ops that would start at a GS-7 level.
Development of competency models will assist in future workload studies
The LMSB Division is working with the IRS Human Capital Office on competency models.
This process began in May 2004 to determine the competencies for the revenue agent and
specialty positions. The results of these models should cover most job series in the LMSB
Division. Completion of the models will assist the LMSB Division in conducting workload
studies for the next 4 to 5 years.
Questionnaires and surveys were used to develop the competency matrix. They were drafted
with input from the Office of Personnel Management, human capital resource experts from the
LMSB Division and the IRS Human Capital Office, and revenue agents and managers in the


3
  The GS is the main pay system of the Federal Government and covers most positions. The GS consists of
15 grades, each broadly defined by law in terms of difficulty and responsibility of the work and the qualifications
required for its performance.
                                                                                                              Page 4
                       The Large and Mid-Size Business Division Has Effectively
                              Implemented Its Human Capital Initiatives



LMSB Division and also in accordance with guidance from psychologists. The surveys
commented on the overall job analysis, skills required for current jobs, skills that may be
required for future jobs, supervisory skill needs, and skills currently possessed by the workforce.
The Quality Assurance and Performance Management office is working with the LMSB Division
embedded Human Resource teams to review the data from these surveys. The LMSB Division
anticipates that a final report will be available soon.
The training program continues to provide consistent and timely courses to
employees
The LMSB Division’s education process is designed to identify employee training needs and
match those needs with specific training courses. While continuing to use classroom training,
the LMSB Division also promotes the use of computer-related learning materials to deliver
training and meet training needs consistently and timely. The LMSB Division uses two online
training systems to deliver its Continuing Professional Education. Also, the LMSB Division
makes use of Intranet/Internet information, satellite broadcasting, interactive television,
Net-meeting,4 and CD-ROM learning modules to share knowledge within its organization.
All LMSB Division newly hired employees participate in a coaching program, which is designed
to transfer skills and knowledge from the experienced revenue agents to the newly hired
employees. The coach and trainee work together to develop an individualized training plan
based on the needs of each new employee.
The succession planning model is in development
Succession planning is a priority for the LMSB Division. Over 50 percent of the management
staff will be eligible to retire by October 2008. An IRS task force is reviewing succession
planning IRS-wide. However, the LMSB Division is conducting its own study to ensure the
LMSB Division has qualified individuals to promote to management. This succession planning
model is scheduled for completion by the end of December 2006. The Division is using three
programs to develop its management cadre: Executive Readiness, Senior Management
Readiness, and Aspiring Team Manager.
Communication continues to remain a priority for management and employees
Effective communication is an important part of the human capital management process. The
LMSB Division recognized the need for changes to its communication process and conducted an
internal review in Calendar Year 2003. The recommendations of that review were used to focus
communication with an emphasis on direct message delivery from employees’ immediate


4
 A software application for audio and video conferencing. NetMeeting offers sharing of desktop video, audio, chat,
and file-transfer functionality.


                                                                                                          Page 5
                    The Large and Mid-Size Business Division Has Effectively
                           Implemented Its Human Capital Initiatives



managers. Although improvement is being made, the LMSB Division recognizes and supports
the need to continually improve its communication capabilities.
The LMSB Division has developed a comprehensive Strategic Communication Plan, which
provides for the short- and long-term objectives and strategies of the LMSB Division’s formal
and informal internal communication program. The model is built around four communication
goals:
       •   Communication practices reflect an organizational commitment to information
           sharing.
       •   Communication makes use of effective, well-managed, well-integrated channels.
       •   Communication reflects clarity of purpose and message.
       •   Communication is measured regularly for impact and effectiveness.
The Commissioner and Deputy Commissioner of the LMSB Division use multiple mechanisms
to communicate throughout the Division. Some of these mechanisms include executive
leadership team meetings, site visits to industry headquarters offices, interactive video broadcasts
for all managers, and senior management meetings. Additional communication to employees is
provided through voice mail messages, Commissioner memoranda, the LMSB Division web site,
the semimonthly LMSB Division news briefs, and the managers “Red Book” alert. Also, a Field
Focus Guide is developed yearly to communicate priorities to front-line employees.




                                                                                             Page 6
                    The Large and Mid-Size Business Division Has Effectively
                           Implemented Its Human Capital Initiatives



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the LMSB Division has
implemented effective actions for and achieved measurable results from its strategic human
capital initiatives. Specifically, we determined whether the LMSB Division is effectively
managing human capital needs to recruit and retain a highly qualified, skilled, and satisfied
workforce to sufficiently manage the risk of the erosion of its ability to provide customer service
and take necessary effective compliance actions. Specifically, we:
I.     Determined whether the LMSB Division has created and implemented a workforce plan
       to identify the numbers and types of employees needed currently and in the future to
       accomplish organizational objectives.
       A. Determined whether the LMSB Division monitored resource needs and determined
          where additional resources are needed to successfully achieve business results in light
          of the high attrition rate.
       B. Determined what oversight the LMSB Division Human Resource function received
          from the IRS Human Capital Office with regard to workforce planning, recruitment,
          training, and succession planning.
       C. Evaluated the workforce planning strategy to determine whether it identified current
          and future human capital needs to rapidly identify trends and changes to respond and
          act effectively.
II.    Determined whether management in the LMSB Division has provided a strategy to build
       teamwork, communicate the LMSB Division mission and objectives to all employees,
       and provide a system to receive feedback from all levels of employees.
       A. Evaluated how feedback is received and used by senior management.
       B. Reviewed the LMSB Division’s communication plan as it pertains to human capital
          issues.
III.   Determined whether the recruitment and staffing process provides the organization with
       qualified staff to meet the needs of line management and support their efforts to achieve
       organizational objectives.
       A. Determined whether the LMSB Division has developed and evaluated the skills and
          competency base needed from its current and future workforces.



                                                                                            Page 7
                       The Large and Mid-Size Business Division Has Effectively
                              Implemented Its Human Capital Initiatives



        B. Determined whether a strategy for filling needs via recruitment, succession planning,
           or restructuring has been completed.
        C. Determined the impact of staffing shortages and subsequent hiring from other
           business divisions, specifically on the Small Business/Self-Employed Division.
IV.     Determined whether training and employee development plans accommodate
        competency and career growth of newly hired employees and the existing workforce for
        all occupations.
        A. Obtained and reviewed any formal training and professional development strategy.
        B. Determined whether the LMSB Division identified the roles, skills, and core
           competencies needed to support its organizational objectives and goals.
        C. Evaluated the LMSB Division’s efforts to develop alternatives for employee learning
           and development and to implement improvements to close critical competency gaps.
V.      Determined what processes or programs are in place or in development to retain and
        sustain a high-performing workforce.
        A. Determined whether the LMSB Division identified the work/life factors, such as
           pay-banding1 and coaching/mentoring, likely to influence retention and workforce
           performance in the LMSB Division.
        B. Determined whether performance incentives are in place and whether these incentives
           were effective to maintain a highly skilled workforce.
VI.     Determined whether the Human Resources Information System2 meets user needs for
        decision making.
        A. Determined whether an evaluation process is in place to determine progress, make
           midcourse corrections, and fix accountability for achieving desired outcomes.
        B. Determined whether there is a measurement system in place that provides regular
           information about key workforce aspects (such as recruitment, retention, morale,
           commitment, and training and development) as compared to desired outcomes.




1
  Pay-banding, also known as broad-banding or grade-banding, involves the consolidation of a large number of pay
grades into a few broad bands, typically four or five. The main purpose of pay-banding is to simplify job
classification and broaden pay ranges.
2
  An integrated system designed to provide information used in human resource decision making.
                                                                                                         Page 8
                      The Large and Mid-Size Business Division Has Effectively
                             Implemented Its Human Capital Initiatives



VII.    Determined whether LMSB Division management completed the corrective actions from
        the prior Treasury Inspector General for Tax Administration report.3




3
 Management Advisory Report: Significant Efforts Have Been Made to Address the Large and Mid-Size Business
Division’s Human Capital Concerns, but a Formal Workforce Planning Model Has Not Been Developed (Reference
Number 2001-30-137, dated August 2001).
                                                                                                   Page 9
                   The Large and Mid-Size Business Division Has Effectively
                          Implemented Its Human Capital Initiatives



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Richard Hayes, Audit Manager
Donna Saranchak, Lead Auditor
Janis Zuika, Auditor




                                                                                        Page 10
                   The Large and Mid-Size Business Division Has Effectively
                          Implemented Its Human Capital Initiatives



                                                                             Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Communications and Liaison, Large and Mid-Size Business Division SE:LM:CL
Director, Management and Finance, Large and Mid-Size Business Division SE:LM:M
Director, Strategy, Research, and Program Planning, Large and Mid-Size Business Division
SE:LM:SR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                                     Page 11
